           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION


    REVIEW OF SOCIAL SECURITY
  ADMINISTRATION CONTROLS OVER
    THE ACCESS, DISCLOSURE AND
  USE OF SOCIAL SECURITY NUMBERS
       BY EXTERNAL ENTITIES

  December 2002     A-08-02-22071
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  m Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  m Promote economy, effectiveness, and efficiency within the agency.
  m Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  m Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  m Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

  m Independence to determine what reviews to perform.
  m Access to all information necessary for the reviews.
  m Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                       SOCIAL SECURITY
MEMORANDUM

Date:   December 30, 2002                                                          Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Review of Social Security Administration Controls over the Access, Disclosure and Use
        of Social Security Numbers by External Entities (A-08-02-22071)

        OBJECTIVE

        Our objective was to assess the Social Security Administration’s (SSA) controls over
        the access, disclosure and use of Social Security numbers (SSN) by external entities.

        BACKGROUND
        The SSN was created in 1936 as a means of tracking workers’ earnings and eligibility
        for Social Security benefits. However, over the years, the SSN has become a de facto
        national identifier used by Federal agencies, State and local governments, and private
        organizations. Government agencies frequently ask individuals for their SSNs because,
        in certain instances, the law requires them to or because SSNs provide a convenient
        means of tracking and exchanging information. While a number of laws and regulations
        require the use of SSNs for various Federal programs, they generally also impose
        limitations on how these SSNs may be used. Although no single Federal law regulates
        overall use and disclosure of SSNs by Federal agencies, the Freedom of Information
        Act of 1966, the Privacy Act of 1974, and the Social Security Act Amendments of 1990
        generally govern disclosure and use of SSNs. See Appendix A for more information on
        the specific provisions of these laws.

        Because of concerns related to perceived widespread sharing of personal information
        and occurrences of identity theft, Congress asked the General Accounting Office (GAO)
        to study how and to what extent Federal, State and local government agencies use
        individuals’ SSNs and how these entities safeguard records or documents containing
                      1
        those SSNs. As part of the study, GAO sent questionnaires to 18 Federal agencies
        (including SSA) that routinely collect, maintain, and use individuals’ SSNs. Specifically,
        GAO’s questionnaires asked each Federal agency to provide information about the
        following:

        1
         Social Security Numbers: Government Benefits from SSN Use but Could Provide Better Safeguards
        (GAO-02-352, May 2002).
Page 2 – The Commissioner


·   methods by which the agency obtains, maintains, and uses individuals’ SSNs;

·   practices for providing individuals’ SSNs to other organizations; and

·   practices for safeguarding records containing SSNs.

The information SSA and the other Federal agencies provided was self-reported, and
GAO did not verify the responses. This report serves as a follow-up to GAO’s study
and provides a more in-depth analysis of SSA’s controls over the access, disclosure
and use of SSNs by external entities.

SCOPE AND METHODOLOGY
To accomplish our objective, we

·   interviewed SSA Headquarters personnel responsible for controls over the access,
    disclosure and use of SSNs;

·   reviewed relevant SSA procedures and practices;

·   verified and updated key pieces of information SSA provided to GAO;

·   reviewed applicable laws and regulations;

·   observed selected contractor activities; and

·   reviewed relevant audit reports.

Although SSA procedures and practices related to the access, disclosure and use of
SSNs by external entities are virtually the same for all Agency programs, we focused
our work on SSA’s title II program. We selected this program, after consultation with
SSA representatives, because it is the largest program for which SSA is responsible.

We performed our review at SSA Headquarters in Baltimore, Maryland, and a field
office in Birmingham, Alabama. In addition, we interviewed personnel at three State
Disability Determination Services (DDS) to assess their controls over contractors’
                          2
access and use of SSNs. We also visited five independent contractors in Birmingham,
Alabama, to assess their controls for safeguarding SSN information.

The SSA entities reviewed were the Offices of the Deputy Commissioners for Finance,
Assessment and Management; Disability and Income Security Programs; and Systems.

2
 In accordance with SSA disclosure regulations (20 CFR 401.25), SSA considers DDS personnel as SSA
employees for purposes of accessing and re-disclosing personally identifiable information in SSA’s
possession when making disability determinations. Therefore, we consider DDS personnel as SSA
employees for purposes of this report.
Page 3 – The Commissioner
We conducted our audit from February through September 2002 in accordance with
generally accepted government auditing standards.

RESULTS OF REVIEW
Although SSA has controls over the access, disclosure and use of SSNs by external
entities, we are concerned about the Agency’s exposure to improper SSN attainment
and misuse. We identified instances in which SSA personnel unnecessarily displayed
SSNs on documents it sent to external entities that may not have had a need to know.
In addition, we identified instances in which SSA personnel were not adequately
monitoring contractors’ access and use of SSNs. Furthermore, based on our review of
recent audit reports related to SSA’s information security environment, the Agency may
be vulnerable to unauthorized access to its computer systems containing SSNs.

SSA Makes Legal and Informed Disclosures But Unnecessarily
Displays SSNs on Certain Documents it Sends to External Entities

SSA generally makes proper SSN disclosure to external entities. SSA personnel inform
numberholders of whether they must provide their SSN to apply for benefits and, if so,
how the Agency will use the SSN. We did not identify any specific instances involving
improper disclosure of SSNs. Moreover, according to attorneys with SSA’s Office of
General Counsel, the Agency has not been party to any litigation regarding improper
SSN disclosure.

SSA’s disclosure policy allows for the release of individuals’ SSNs to external entities
as necessary to administer its programs under the Social Security Act. SSA releases
SSNs with the numberholder’s written consent and in other situations where Federal
law authorizes disclosure. Examples include disclosure of SSNs in the following
circumstances.

·     To Federal, State and local governments that are authorized under Federal law to
      collect and use SSNs to administer income and health maintenance programs. For
      example, the Department of Veterans Affairs uses SSNs to administer its veterans
      pension and compensation programs.

·     To prison systems because Federal law requires that they report prison information
      to SSA.

·     To States’ vital records and statistics agencies for administering public health and
      income maintenance programs, including statistical studies and evaluation projects.3

While delivering services and benefits, SSA, like many Federal agencies, displays
SSNs on documents that may be viewed by others, some of whom may not have a
need to know. We identified instances in two States in which DDS personnel
3
    Master Files of SSN Holders and SSN Applications, SSA/OSR, 60-0058.
Page 4 – The Commissioner
unnecessarily displayed SSNs on documents it sent to third parties. DDS personnel
routinely send questionnaires to third parties (for example, neighbors or friends)
requesting information about disability claimants’ daily activities. We question whether
individuals receiving these questionnaires need to know a disability claimant’s SSN.
We also identified instances in which SSA personnel displayed SSNs on forms it sent to
vocational experts (independent contractors) requesting opinions about disability
claimants’ ability to work. We question whether these third parties need to know a
disability claimant’s SSN.

We believe displaying SSNs on documents sent to individuals who may not have a
need to know increases the risk that others may improperly obtain and misuse the SSN.
In fact, personnel in one State DDS told us they recognized the vulnerability associated
with displaying SSNs on third-party questionnaires and changed to a case numbering
system to assist them in identifying claimant files.

SSA Places Safeguard Requirements on
Contractors But Lacks Adequate Monitoring

SSA and State DDSs award thousands of contracts, acquisitions, and orders each year.
Examples of contractors who use files and other information that may contain SSNs
include doctors (that is, panel physicians) who perform medical examinations for
disability determinations and vocational experts who provide opinions to SSA Offices’ of
Hearings and Appeals.

SSA’s disclosure policy allows SSA to provide SSNs to contractors as necessary to
assist the Agency in carrying out its statutory responsibilities.4 Contracts generally
contain standard language related to personal information safeguards, including the
SSN, which SSA requires contractors to follow. Contracts may also contain penalty
provisions for misuse of information by contractors. SSA places numerous
requirements regarding the privacy of SSNs on contractors. For example, entities
receiving SSN information (1) cannot provide it to other entities, (2) cannot allow any
unauthorized persons to see individuals’ SSNs, and (3) must keep records containing
SSNs in a secure place.

To determine whether SSA had appropriate controls over contractors’ access to, and
use of, SSNs, we reviewed monitoring site visit reports and checklists, observed
security practices at contractors’ offices, and examined a written agreement. Our
review of SSA’s formal and informal site visit reports found that personnel did not
address the security of personal identifying information, such as SSNs, during
monitoring visits. Our review of the monitoring checklist State DDS personnel use when
conducting contractor site visits, which conforms to SSA guidelines,5 does not address
the security of personal identifying information. Given the importance of preventing

4
    Ibid.
5
    Program Operations Manual System, DI 39545.900.
Page 5 – The Commissioner
improper attainment and misuse of SSNs, we believe SSA’s monitoring activities should
include an evaluation of contractors’ security practices to ensure they uphold their
obligation to protect the confidentiality and security of SSNs.

Based on our discussions and observations at panel physicians’ offices, we are also
concerned about controls over contractors’ security practices for file storage. For
example, we noted instances in which physicians maintained personal identifying
information, including SSNs, in unlocked file cabinets or storage rooms, neither of
which provided adequate security. State DDS personnel who accompanied us on our
site visits shared our concern of inadequate file security.

The agreement with Consulting Professionals and Hospitals or Clinics (panel
physicians) we reviewed includes language that prohibits “unauthorized disclosure of
information.” The agreement also addresses potential third-party providers who may
provide needed assistance, such as transcription services. The agreement requires
panel physicians to inform a third-party “that services are being performed in connection
with a Social Security program, and that improper disclosure of information about the
subject individual is prohibited.” Panel physicians we interviewed told us they had not
discussed security of personal identifying information, such as SSNs, with transcription
services personnel, as required by their agreement with SSA. In addition, although the
Blanket Purchase Agreement SSA uses for vocational experts incorporates the Privacy
Act by reference, we encourage SSA to add specific SSN disclosure language for
emphasis, as it uses in other SSA contracts.

SSA Places Controls over Access to Individuals’ SSNs
Maintained in its Databases, But Weaknesses Exist

Although SSA limits access to its databases primarily to its employees, the Agency also
authorizes systems access to external entities for specific purposes. For example, SSA
allows agencies, such as the Centers for Medicare and Medicaid Services and the
Railroad Retirement Board access to its databases to assist in beneficiary eligibility
determinations. SSA also allows contractors access to its databases to provide such
services as software design and support and data processing.

Federal laws lay out a framework for Federal agencies to follow when establishing
information security programs that protect sensitive personal information, such as
       6
SSNs. This framework includes four principles that are important to an overall
information security program. These principles are to periodically assess risk,
implement policies and controls to mitigate risks, promote awareness of risks for
information security, and continually monitor and evaluate information security
practices. To gain a better understanding of whether SSA had in place measures to
adequately safeguard SSNs that are consistent with the Federal framework, we

6
 See the Computer Security Act of 1987, Pub. L. No. 100-235, 101 Stat. 1724 (1988); the Paperwork
Reduction Act of 1995, Pub. L. No. 104-13, 109 Stat. 163 (1995); the Clinger-Cohen Act of 1996, Pub. L.
No. 104-106 § 4304, 110 Stat. 186, 659 (1996); and OMB guidance, such as Circular A-130.
Page 6 – The Commissioner
reviewed recent audit reports related to its information security environment. See
Appendix B for a list of audit reports related to SSA’s information security environment.

SSA’s information security framework includes self-reviews and policies and
procedures to safeguard its sensitive information systems. For example, SSA conducts
annual self-reviews on its sensitive systems to certify that adequate controls exist.7 In
addition, SSA formed a Security Response Team to address security incidents involving
                                                                               8
its computer systems, Internet and Intranet servers, and Local Area Network servers.
To detect systems violations, SSA uses such tools as integrity reviews, audit trail
systems, and access controls. Furthermore, to better coordinate and monitor its
Agency-wide security framework, SSA recently established the Office of the Chief
Information Officer to centralize system security policies and procedures.

We acknowledge SSA has made strides in its information security efforts. However,
despite SSA’s controls, recent Office of the Inspector General and contractor audit
reports identified weaknesses within its information security environment. Main areas
of vulnerability include the following:

·   physical access controls at non-Headquarters locations, including SSA’s regional
    offices, program service centers, and selected DDSs;

·   implementation and monitoring of technical security configuration standards
    governing systems housed in the National Computer Center and off-site house
    systems; and

·   monitoring security violations and periodic review of user access.9

Because of the sensitive nature of information security issues, we chose to withhold
detailed descriptions of information security control weaknesses identified in recent
audit reports. We are working with SSA to reach consensus on an effective action plan
to resolve these weaknesses.


CONCLUSION AND RECOMMENDATIONS
Despite SSA’s safeguards to prevent improper access, disclosure and use of SSNs by
external entities, the Agency remains at-risk to such activity. We recognize SSA’s
efforts can never eliminate the potential that unscrupulous individuals may

7
 Social Security: Annual Program Review Government Information Security Reform Act,
September 2002, pp. 3-4.
8
 A Local Area Network or LAN is a system for linking programs, storage, and devices to multiple
workstations over an area such as, within a building.
9
 Social Security Administration Performance and Accountability Report for Fiscal Year 2001,
December 2001, pp. 225-226.
Page 7 – The Commissioner
inappropriately acquire and misuse SSNs. Nonetheless, we believe SSA, as a Federal
agency and public servant, has a duty to safeguard the integrity of SSNs by reducing
opportunities for external entities to improperly obtain and misuse the SSNs. Given the
potential risk for individuals to engage in such activity, we believe SSA would benefit by
strengthening some of its controls over the access, disclosure and use of SSNs by
external entities.

Accordingly, we recommend that SSA:

1. Limit SSN display on documents to external entities to those that have a need to
   know.

2. Monitor contractors’ access, disclosure and use of SSNs to ensure they uphold their
   obligation to protect the confidentiality and security of SSNs.

3. Continue to address identified weaknesses within its information security
   environment to better safeguard SSNs.

AGENCY COMMENTS

SSA agreed with our recommendations. Regarding Recommendation 1, SSA agreed
that SSNs should not be used on documents sent to external entities that do not have a
need to know the SSN. SSA plans to issue a reminder to the DDSs regarding
adherence to policy and procedural instructions that govern the display of SSNs on
correspondence. Regarding Recommendation 2, SSA stated it plans to add specific
SSN disclosure language in its contracts/Blanket Purchase Agreements by the end of
Fiscal Year 2003. SSA also stated it plans to issue a reminder to State DDSs to
re-emphasize the serious responsibility to monitor and protect the confidentiality and
security of SSNs disclosed to contractors and revise site visit instructions to include
specific reference to monitoring the security of the information. Regarding
Recommendation 3, SSA stated it will continue to work with the OIG to reach
consensus on an effective action plan to resolve identified information security
weaknesses. The full text of SSA's comments is included in Appendix C.




                                                James G. Huse, Jr.
                                  Appendices
APPENDIX A – Federal Laws that Restrict Disclosure of the Social Security Number

APPENDIX B – Reports Related to the Social Security Administration’s Information
             Security Environment

APPENDIX C – Agency Comments

APPENDIX D – OIG Contacts and Staff Acknowledgments
                                                                             Appendix A

Federal Laws that Restrict Disclosure of the
Social Security Number
The following Federal laws establish a framework for restricting Social Security number
(SSN) disclosure.1

The Freedom of Information Act (5 U.S.C. 552)

The Freedom of Information Act (FOIA) establishes a presumption that records in the
possession of Executive Branch agencies and departments are accessible to the
people. FOIA, as amended, provides that the public has a right of access to Federal
agency records, except for those records that are protected from disclosure by nine
stated exemptions. One of these exemptions allows the Government to withhold
information about individuals in personnel and medical files and similar files when the
disclosure would constitute a clearly unwarranted invasion of personal privacy.
According to Department of Justice guidance, agencies should withhold SSNs under
this FOIA exemption. This statute does not apply to State and local governments.

The Privacy Act of 1974 (5 U.S.C. 552a)

The Privacy Act regulates Federal agencies’ collection, maintenance, use and
disclosure of personal information maintained by agencies in a system of records. The
Act prohibits the disclosure of any record contained in a system of records unless the
disclosure is made based on a written request or prior written consent of the person to
whom the records pertain or is otherwise authorized by law. The Act authorizes
12 exceptions under which an agency may disclose information in its records.

The Act contains a number of additional provisions that restrict Federal agencies’ use of
personal information. For example, an agency must maintain in its records only such
information about an individual as is relevant and necessary to accomplish a purpose
required by statute or Executive Order of the President, and the agency must collect
information to the greatest extent practicable directly from the individual when the
information may result in an adverse determination about an individual’s rights, benefits
and privileges under Federal programs.




1
 Summarized from Social Security Numbers: Government Benefits from SSN Use but Could Provide
Better Safeguards (GAO-02-352, May 2002).



                                              A-1
The Social Security Act Amendments of 1990 (42 U.S.C. 405(c)(2)(C)(viii))2

The Social Security Act bars disclosure by Federal, State and local governments of
SSNs collected pursuant to laws enacted on or after October 1, 1990. This provision of
the act also contains criminal penalties for “unauthorized willful disclosures” of SSNs.
Because the Act specifically cites willful disclosures, careless behavior or inadequate
safeguards may not be subject to criminal prosecution. Moreover, applicability of the
provision is further limited in many instances because it only applies to disclosure of
SSNs collected in accordance with laws enacted on or after October 1, 1990. For
SSNs collected by Federal entities pursuant to laws enacted before October 1, 1990,
this provision does not apply and therefore, would not restrict disclosing the SSN.
Finally, because the provision applies to disclosure of SSNs collected pursuant to laws
requiring SSNs, it is not clear if the provision also applies to disclosure of SSNs
collected without a statutory requirement to do so. This provision applies to Federal,
State and local governmental agencies; however, the applicability to courts is not clearly
spelled out in the law.




2
    Pub. L. No. 101-624 §2201, 104 Stat. 3359, 3951 (1990).


                                                    A-2
                                                                     Appendix B

Reports Related to the Social Security
Administration’s Information Security
Environment
The Social Security Administration’s Office of the Inspector General

  General Controls of the Alabama Disability Determination Services Claims
  Processing System Need Improvement, A-14-02-22089, September 2002.

  The Social Security Administration’s Compliance with the Government Information
  Security Reform Act, A-14-02-12042, September 2002.

  Review of Security over Remote Access to the Social Security Administration’s Main
  Processing Environment, A-14-01-11010, May 2002.

  Disclosure of Personal Beneficiary Information to the Public, A-01-01-01018,
  January 2002.

  Management Advisory Report: Implementation of the Government Information
  Security Reform Act, A-14-01-21056, September 2001.

  The Social Security Administration’s Compliance with the Government Information
  Security Reform Act, A-14-01-21055, September 2001.

  Audit of the Administrative Costs Claimed by the Connecticut Disability
  Determination Services, A-15-00-30016, September 2001.

  Social Security Administration’s Intelligent Work Station/Local Area Network and
  Telecommunication Security, A-14-99-11005, August 2001.

  Management Advisory Report - Compliance of the Social Security Administration’s
  Computer Security Program with Applicable Laws and Regulation, A-13-98-12044,
  June 2001.

  Management Advisory Report – Administration of TOP SECRET at the National
  Computer Center, A-14-99-11001, September 2000.

  Social Security Administration’s Suitability Program for Employees and Contractors,
  A-14-99-12006, June 2000.




                                         B-1
PricewaterhouseCoopers LLP

  Social Security Administration’s Fiscal Year 2001 Audit/Management Letter Part 1,
  November 2001.

Janus Associates, Inc.

  SSA-63 Task 1 Penetration Testing for Social Security Administration, March 2001.

Deloitte & Touche

  Social Security Administration National Computer Center Likelihood Report
  (Contract No. 600-98-34387), July 2001.

  Title II Redesign, Release One (Contract No. 600-98-34387), June 2001.

Department of the Treasury, Internal Revenue Service
  Safeguard Review Report (Catalog No. 45306Z), January 2000.




                                        B-2
                  Appendix C

Agency Comments
                                           SOCIAL SECURITY

MEMORANDUM


Date:      December 16, 2002                                                          Refer To: S1J-3

To:        James G. Huse, Jr.
           Inspector General

From:      Larry W. Dye      /s/
           Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Review of Social Security Administration Controls
           over the Access, Disclosure and Use of Social Security Numbers by External Entities
           (A-08-02-22071)—INFORMATION


           We appreciate OIG's efforts in conducting this review. Our comments on the report content and
           recommendations are attached.

           Please let us know if we can be of further assistance. Staff questions can be referred to
           Laura Bell on extension 52636.

           Attachment:
           SSA Response




                                                            C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT REPORT,
“REVIEW OF SOCIAL SECURITY ADMINISTRATION CONTROLS OVER THE ACCESS,
DISCLOSURE AND USE OF SOCIAL SECURITY NUMBERS BY EXTERNAL ENTITIES”
(A-08-02-22071)


As OIG is aware, we have long been concerned about ensuring the confidentiality of all personal
information maintained by the Agency. We already have established policies, procedures and
technical configurations standards requirements.

To safeguard our sensitive information systems, we have included self-reviews, policies and
procedures in our information security framework. In addition, we monitor technical
configuration standards of systems throughout the Agency and perform systems security reviews
and audits periodically throughout the year. We have established a Security Response Team
(SRT) to address security incidents.

On a quarterly basis, we examine, audit and review audit conclusions and recommendations to
determine the progress we have made toward closure of the issues.

We are actively reviewing access at component levels, and will continue to monitor security
violations and periodic reviews of user access. We are working with OIG to establish an
acceptable review and control process for access at all component levels. For the Disability
Determination Services in the states, we have developed and distributed a security document and
continue to work with them to ensure compliance with established policies, procedures, and
configuration standards.

We also actively monitor network activity for anomalies and have a real-time emergency
notification program. The notification program provides continuous coverage and responds to
any threats and vulnerabilities.

With the policies, procedures, configuration standards, and monitoring activity presently in place
and the addition of improved technologies/processes as they are available, we will continue to
make strides in our information security efforts.

Our responses to the specific recommendations are provided below.

Recommendation 1

Limit Social Security Number (SSN) display on documents to external entities to those that have
a need to know.




                                               C-2
Comment

We agree that SSNs should not be used on documents sent to external entities that do not have a
need to know the SSN. We have policy and procedural instructions in place (POMS GN
03325.005, GN 03325.020) that govern the display of SSNs on correspondence. We will issue a
reminder to the Disability Determination Services (DDS) regarding adherence to the policy and
instructions.

Recommendation 2

Monitor contractors’ access, disclosure and use of SSNs to ensure they uphold their obligation to
protect the confidentiality and security of SSNs.


Comment

We agree with the recommendation to the extent that it applies to contracts and contractor
performance for which the Agency has responsibility, including the addition of specific SSN
disclosure language to the Blanket Purchase Agreements (BPA) that the Office of Hearings and
Appeals (OHA) awards to Medical and Vocational Experts. We plan to add the specific SSN
disclosure language in the several-thousand contracts/BPAs before the end of this fiscal year.

As for OIG’s observations regarding contracts awarded by the State DDSs, these contracts are
not subject to SSA’s acquisition policy or to the Federal Acquisition Regulation. We will issue a
reminder to the States to re-emphasize the serious responsibility to monitor and protect the
confidentiality and security of SSNs and personal identity information disclosed to their
contractors, and will revise the site visit instructions to include specific reference to monitoring
the security of the information.

Recommendation 3

Continue to address identified weaknesses within the Agency’s information security environment
to better safeguard SSNs.


Comment

We will continue to work with OIG, as noted in the report, to reach consensus on an effective
action plan to resolve the identified weaknesses.




                                                C-3
                                                                        Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Jeff Pounds, Acting Director, Southern Audit Division, (205) 801-1606

Staff Acknowledgments

In addition to the persons named above:

   Kathy L. Youngblood, Auditor-in-Charge

   Theresa Roberts, Auditor

   Kimberly Beauchamp, Writer/Editor

For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-08-02-22071.
                          DISTRIBUTION SCHEDULE

                                                                          No. of
                                                                         Copies

Commissioner of Social Security                                               1
Management Analysis and Audit Program Support Staff, OFAM                    10
Inspector General                                                             1
Assistant Inspector General for Investigations                                1
Assistant Inspector General for Executive Operations                          3
Assistant Inspector General for Audit                                         1
Deputy Assistant Inspector General for Audit                                  1
 Director, Data Analysis and Technology Audit Division                        1
 Director, Financial Audit Division                                           1
 Director, Southern Audit Division                                            1
 Director, Western Audit Division                                             1
 Director, Northern Audit Division                                            1
 Director, General Management Audit Division                                  1
Team Leaders                                                                 25
Income Maintenance Branch, Office of Management and Budget                    1
Chairman, Committee on Ways and Means                                         1
Ranking Minority Member, Committee on Ways and Means                          1
Chief of Staff, Committee on Ways and Means                                   1
Chairman, Subcommittee on Social Security                                     2
Ranking Minority Member, Subcommittee on Social Security                      1
Majority Staff Director, Subcommittee on Social Security                      2
Minority Staff Director, Subcommittee on Social Security                      2
Chairman, Subcommittee on Human Resources                                     1
Ranking Minority Member, Subcommittee on Human Resources                      1
Chairman, Committee on Budget, House of Representatives                       1
Ranking Minority Member, Committee on Budget, House of Representatives        1
Chairman, Committee on Government Reform and Oversight                        1
Ranking Minority Member, Committee on Government Reform and Oversight         1
Chairman, Committee on Governmental Affairs                                   1
Ranking Minority Member, Committee on Governmental Affairs                    1
Chairman, Committee on Appropriations, House of Representatives               1
Ranking Minority Member, Committee on Appropriations,
 House of Representatives                                                    1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations,
 House of Representatives                                                     1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                     1
Chairman, Committee on Appropriations, U.S. Senate                            1
Ranking Minority Member, Committee on Appropriations, U.S. Senate             1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations, U.S. Senate               1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                  1
Chairman, Committee on Finance                                                1
Ranking Minority Member, Committee on Finance                                 1
Chairman, Subcommittee on Social Security and Family Policy                   1
Ranking Minority Member, Subcommittee on Social Security and Family Policy    1
Chairman, Senate Special Committee on Aging                                   1
Ranking Minority Member, Senate Special Committee on Aging                    1
President, National Council of Social Security Management Associations,
  Incorporated                                                                1
Treasurer, National Council of Social Security Management Associations,
  Incorporated                                                                1
Social Security Advisory Board                                                1
AFGE General Committee                                                        9
President, Federal Managers Association                                       1
Regional Public Affairs Officer                                               1


Total                                                                        96
                 Overview of the Office of the Inspector General


                                      Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly
present the Agency’s financial position, results of operations and cash flow. Performance
audits review the economy, efficiency and effectiveness of SSA’s programs. OA also
conducts short-term management and program evaluations focused on issues of concern to
SSA, Congress and the general public. Evaluations often focus on identifying and
recommending ways to prevent and minimize program fraud and inefficiency, rather than
detecting problems after they occur.

                            Office of Executive Operations
The Office of Executive Operations (OEO) provides four functions for the Office of the
Inspector General (OIG) – administrative support, strategic planning, quality assurance, and
public affairs. OEO supports the OIG components by providing information resources
management; systems security; and the coordination of budget, procurement,
telecommunications, facilities and equipment, and human resources. In addition, this Office
coordinates and is responsible for the OIG’s strategic planning function and the development
and implementation of performance measures required by the Government Performance and
Results Act. The quality assurance division performs internal reviews to ensure that OIG
offices nationwide hold themselves to the same rigorous standards that we expect from the
Agency. This division also conducts employee investigations within OIG. The public affairs
team communicates OIG’s planned and current activities and the results to the Commissioner
and Congress, as well as other entities.

                                 Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to
fraud, waste, abuse, and mismanagement of SSA programs and operations. This includes
wrongdoing by applicants, beneficiaries, contractors, physicians, interpreters, representative
payees, third parties, and by SSA employees in the performance of their duties. OI also
conducts joint investigations with other Federal, State, and local law enforcement agencies.

                          Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector
General on various matters, including: 1) statutes, regulations, legislation, and policy
directives governing the administration of SSA’s programs; 2) investigative procedures and
techniques; and 3) legal implications and conclusions to be drawn from audit and
investigative material produced by the OIG. The Counsel’s office also administers the civil
monetary penalty program.
